No. 19-347
In the

Supreme Court of the United States

AER ADVISORS INC.; WILLIAM J. DEUTSCH;
PETER E. DEUTSCH,
Petitioners,
v.
FIDELITY BROKERAGE SERVICES, LLC,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the First Circuit

REPLY BRIEF IN SUPPORT OF
PETITION FOR WRIT OF CERTIORARI
Howard Graff
Counsel of Record
A rent Fox LLP
1301 Avenue of the Americas, 42nd Floor
New York, NY 10019
(212) 484-3900
howard.graff@arentfox.com
Counsel for Petitioners

293775

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . ii
A. This Appeal Presents an Important
Question Ripe for Resolution by the
Supreme Court: Whether SAR Filers
Are Entitled to Absolute Immunity . . . . . . . . . . . 1
1.

The Eleventh Circuit, on the One
Hand, and the First and Second
Circuits, on the Other, are Divided
O ve r W h e t h e r S A R - f i l e r s a r e
Entitled to Absolute Immunity  . . . . . . . . . . 1

2.

The Record Below is Emblematic of the
Tension Created by the Circuit Split . . . . . . 3

3.

Absolute Immunity for Disclosures That
Are Objectively Not Possible Violations
of the Law or Regulations, or Made in Bad
Faith, or Are Fraudulent is Inconsistent
With the Purpose of Section 5318  . . . . . . . . 5

B. The Ambiguity Over Whether a Federal
Transferee Court Must Apply Its Own Law
in a Diversity Case When the Transfer is
Pursuant to 28 U.S.C. § 1404 is Also Ripe
for Resolution by the Supreme Court. . . . . . . . . . 6
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

ii
TABLE OF CITED AUTHORITIES
Page
Cases
Bradley v. United States,
161 F.3d 777 (4th Cir. 1998)  . . . . . . . . . . . . . . . . . . . . . 7
Doughty v. Cummings,
28 So. 3d 580 (La. Ct. App. 2009) . . . . . . . . . . . . . . . . 2
Ferens v. John Deere Co.,
494 U.S. 516 (1990)  . . . . . . . . . . . . . . . . . . . . . . . . . . 7, 8
In Re Korean Air Lines Disaster,
829 F.2d 1171 (D.C. Cir. 1987), aff ’d on
other grounds sub nom., Chan v. Korean
Air Lines, Ltd., 490 U.S. 122 (1989) . . . . . . . . . . . . . . 7
In re TMJ Implants Prod. Liab. Litig.,
97 F.3d 1050 (8th Cir. 1996) . . . . . . . . . . . . . . . . . . . . . 8
Lee v. Bankers Trust Co.,
166 F.3d 540 (2d Cir. 1999) . . . . . . . . . . . . . . . . . . . . . . 2
Lopez v. First Union Nat’l Bank,
129 F.3d 1186 (11th Cir. 1997) . . . . . . . . . . . . . . . . . 1, 2
Menowitz v. Brown,
991 F.2d 36 (2d Cir. 1993) . . . . . . . . . . . . . . . . . . . . . . . 7
Murphy v. FDIC,
208 F.3d 959 (11th Cir. 2000) . . . . . . . . . . . . . . . . . . . . 7

iii
Cited Authorities
Page
Stoutt v. Banco Popular de Puerto Rico,
320 F.3d 26 (1st Cir. 2003) . . . . . . . . . . . . . . . . . . . . . . 2
Tel-Phonic Servs., Inc. v. TBS Int’l, Inc.,
975 F.2d 1134 (1992)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Van Dusen v. Barrack,
376 U.S. 612 (1964)  . . . . . . . . . . . . . . . . . . . . . . . . . . 7, 8
Statutes and Other Authorities
28 U.S.C. § 1404  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 7
31 U.S.C. § 5318  . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim

1
Financial institutions including respondent Fidelity
have weaponized the Bank Secrecy Act, 31 U.S.C.
§ 5318(g)(3)(A) (“Section 5318”) arrogating unto
themselves an “absolute immunity” never authorized by
Congress. Contrary to Fidelity’s claim (now endorsed
by both the First and Second Circuits), the language
employed by Congress in Section 5318, as part of the
Annunzio-Wylie Anti-Money Laundering Act of 1992
(the “Annunzio-Wylie Act”), does not confer “absolute
immunity.” Instead, Section 5318 provides that financial
institutions shall not be liable for “mak[ing] a disclosure of
any possible violation of law or regulation to a government
agency . . . .”
A. This Appeal Presents an Important Question Ripe
for Resolution by the Supreme Court: Whether SAR
Filers Are Entitled to Absolute Immunity.
As will be shown below: (1) circuit courts are split on
whether a SAR’s filer enjoys absolute immunity; (2) the
case at bar is the ideal vehicle to resolve that split; (3) the
surrounding circumstances warrant review by this Court.
1.

The Eleventh Circuit, on the One Hand, and
the First and Second Circuits, on the Other, are
Divided Over Whether SAR-filers are Entitled
to Absolute Immunity.

The circuit split has been clearly articulated and
unmistakably established. The Eleventh Circuit in Lopez
v. First Union Nat’l Bank, 129 F.3d 1186 (11th Cir. 1997)
held that Section 5318 does not provide absolute immunity.
See Lopez v. First Union Nat’l Bank, 129 F.3d 1186, 119293 (11th Cir. 1997).

2
In Lee v. Bankers Trust Co., 166 F.3d 540, 544-45
(2d Cir. 1999), the Second Circuit explicitly rejected the
holding in Lopez, ruling instead that Section 5318 granted
absolute immunity to a SAR filer.
The First Circuit in Stoutt v. Banco Popular de
Puerto Rico, 320 F.3d 26, 30 (1st Cir. 2003) appeared to
endorse the Second Circuit and expressly rejected the rule
articulated by the Eleventh Circuit in Lopez. In the case
at bar, the First Circuit reaffirmed its holding in Stoutt
and clarified that, unlike the Eleventh Circuit, a SAR filer
in the First Circuit enjoys absolute immunity.
Numerous other courts have recognized and discussed
the circuit split. See, e.g., Bank of Eureka Springs. See
Doughty v. Cummings, 28 So.3d 580, 583 (La. Ct. App.
2009). These cases – offering differing interpretations of
Section 5318 – buttress the need for this Court to resolve
the much debated question.
We cannot overlook Fidelity’s counterargument.
Turning a blind eye to the recognized circuit split, Fidelity
urges that these colliding decisions may be reconciled
because: (i) Section 5318 embodies three different “safe
harbors”; (ii) the Eleventh Circuit, which requires “good
faith” as a condition to immunity, triggered the “safe
harbor” applicable to voluntary disclosures; (iii) the
First and Second Circuits applied another “safe harbor”
applicable to required disclosures. Thus, Fidelity urges
that, as it reads the statutory language, there is no actual
split since the lower courts (apparently in conflict) were
addressing different “safe harbors.”

3
But the words “safe harbor” do not appear in Section
5318, much less three different “safe harbors.” Rather,
the language embodied in Section 5318 embodies three
different immunity triggers (essentially for voluntary
disclosures and two types of involuntary disclosures).
No matter how triggered, however, there is only one
immunity: that which is bestowed when any possible
violation is disclosed. And, despite Fidelity’s creative
reading, that immunity (the same immunity) attaches
equally to voluntary and involuntary disclosures; i.e., all
three so-called “safe harbors”.
Said another way, the lower courts were all correct:
the First and Second Circuits have conferred “absolute
immunity” for disclosures in a SAR; the Eleventh Circuit
has not done so. This collision constitutes a sharp and
defined split. Fidelity’s counterargument is specious.
2.

The Record Below is Emblematic of the
Tension Created by the Circuit Split.

The record contains a pleading – a second amended
complaint (“SAC”) – that explains why statutory immunity
is not conferred by Section 5318: because Fidelity did not
disclose a possible violation of law. Instead, as detailed
in the SAC, Fidelity embarked upon and implemented
a fraudulent scheme – pivoting upon a falsified SAR
– to cover up its own illegal conduct. It is specifically
alleged how Fidelity’s own conduct before June 12, 2012
precipitated the market disruption that was recognized by
its senior executives by June 15, 2012, and how Fidelity’s
market manipulation precipitated failed recalls, resulting
“buy-ins” leading to a short squeeze. SAC ¶ 58. Thus (as
likewise detailed in the SAC), the Petitioners’ movement

4
of accounts on or after June 18, 2012 did not (and could
not) cause a short squeeze, i.e., Fidelity’s own conduct had
already caused that market disruption. Id., ¶ 59.
Contrary to Fidelity’s representation, the FINRA
arbitration panel did not exonerate Fidelity – certainly
not with respect to AER, a non-party to that proceeding.
Instead, if anything, the arbitral decision affirms
Fidelity’s culpability:
Now turning to the underlying merits of
the claim, the Panel finds serious fault with
Fidelity’s handling of the Deutsch account
during the critical period.
***
In essence, the firm appeared to be more
focused on its own interests at the expense
of accommodating those of its client or at
minimum gaining a key understanding as
to what the client’s intentions and interests
were. Instead, the conclusion was reached
that Deutsch and O’Leary were engineering
a short squeeze and should be cut off from
further purchases of CMED. By reason of the
foregoing, the Panel finds in favor of Claimants
on this equitable issue.
Award at 9. This remarkable finding of willful and
culpable ignorance was issued by an industry-created
FINRA panel. The fraud, fraudulent concealment, and
cover up detailed by the SAC (SAC ¶¶ 58-70) extended far
beyond an absence of “good faith.” Id. In short, Fidelity’s

5
speculation that Petitioners could never prove their case
is – at best – completely premature.
Finally, holding Fidelity responsible for its egregious
conduct in this case will not (as Fidelity suggests) open
the floodgates to investor litigation. Rather, a viable
fraud complaint must be particularized – showing how
the statutory prerequisites have been satisfied. Thus, it
will not be possible, as Fidelity suggests, for a plaintiff
to sustain a complaint containing a naked allegation of
bad faith/fraud. As in this case, the pleading must be
particularized and demonstrate a viable claim.
3.

Absolute Immunity for Disclosures That Are
Objectively Not Possible Violations of the Law
or Regulations, or Made in Bad Faith, or Are
Fraudulent is Inconsistent With the Purpose
of Section 5318.

The sound policy articulated by the Eleventh Circuit
is well-illustrated by the instant case. It would be
grotesque to reward Fidelity for its fraudulent disclosure –
particularly since that disclosure was fabricated to deflect
attention from the unmistakable fact that Fidelity (itself)
had triggered a market disruption by its illegal lending
practices; i.e., that it understood its own market practices
(nothing done by Petitioners) had precipitated a market
disruption but sought to shift the blame by issuing a bogus
SAR disclosure. Sanitizing such conduct does nothing for
law enforcement – except perhaps initiating a wild goose
chase and wasting much needed enforcement resources.
Sanitizing such deceptive practices certainly will not
engender confidence in our financial or government
institutions.

6
Unsurprisingly, Congress did not grant “absolute
immunity” to financial institutions for conduct such as
exhibited by Fidelity. There is simply no rational basis
to immunize a fraud – much less to immunize an effort of
a wrongdoer to fraudulently conceal its own misconduct.
Instead, the statutory language limits the immunity to
reports of “any possible violation of law,” which is the
very antithesis of an “absolute immunity” advocated
by Fidelity. Said another way, honest (or good faith)
disclosures will unquestionably assist law enforcement. A
dishonest or fraudulent disclosure can only impede that
effort (i.e., as Fidelity intended in this case).
Moreover, Fidelity’s resort to legislative history
notably contrasts with the Petition’s reliance on Section
5318’s plain language. If Congress intended to confer
absolute immunity, it would have said so. Even Fidelity
conceded that absolute immunity may create some risk of
false reporting, a risk Fidelity dismissed as “minor.” Br. in
Opp’n 19. It is for Congress – not a self-interested financial
institution – to set the parameters of the immunity. Having
limited immunity to reports of “any possible violation of
law,” Congress defined the contours of immunity. Had
Congress determined to afford absolute immunity to
financial institutions, it could have done so.
B. The Ambiguity Over Whether a Federal Transferee
Court Must Apply Its Own Law in a Diversity Case
When the Transfer is Pursuant to 28 U.S.C. § 1404
is Also Ripe for Resolution by the Supreme Court.
The question of whether a federal transferee court
must apply its own law or the law of the transferor court
to a defendant’s federal statutory law affirmative defense

7
in a diversity case has never been addressed by this
Court. The transfer at bar worked a dispositive difference
because of the circuit split addressed above. The ruling
below therefore frustrates the remedial purposes of 28
U.S.C. § 1404(a), effecting a change of law as an improper
“bonus” for a change of venue. Such a rule contradicts
the teachings of this Court in Van Dusen v. Barrack,
376 U.S. 612, 639 (1964) and Ferens v. John Deere Co.,
494 U.S. 516, 523 (1990), which held that a federal court
sitting in diversity shall apply the substantive laws of the
transferor jurisdiction.
Fidelity in opposition relied on federal question cases,
which are wholly irrelevant to the issue of whether a
transferee court applies federal or state law to a federal
statutory law affirmative defense in a diversity case based
on state law claims. See Menowitz v. Brown, 991 F.2d 36
(2d Cir. 1993); Bradley v. United States, 161 F.3d 777 (4th
Cir. 1998); Tel-Phonic Servs., Inc. v. TBS Int’l, Inc., 975
F.2d 1134 (1992); Murphy v. FDIC, 208 F.3d 959 (11th
Cir. 2000); In Re Korean Air Lines Disaster, 829 F.2d
1171, 1174 (D.C. Cir. 1987) (Ginsburg, J.), aff’d on other
grounds sub nom., Chan v. Korean Air Lines, Ltd., 490
U.S. 122 (1989).
Fidelity seemingly suggests that only a circuit split
warrants resolution by the Supreme Court, but this is
clearly not the law. That the Supreme Court has not
explicitly addressed the question of whether the rule
in Van Dusen applies to a federal statutory defense is
justification enough for the Supreme Court to resolve
this issue.

8
Fidelity’s inclusion of In re TMJ Implants Prod.
Liab. Litig., 97 F.3d 1050, 1056 (8th Cir. 1996) is puzzling.
There, the Eighth Circuit applied state law – including to
all defenses – at issue. Id. (“Products liability claims are,
of course, state law tort actions. With approximately 280
cases from across the nation consolidated in this action,
we would normally face the daunting task of analyzing
the law of each state where the actions were originally
filed. The parties, however, have conceded on appeal that
‘the basis of component part liability law is constant in all
jurisdictions.’”).
Every one of the diversity cases Fidelity cited based
on state law claims applied state law. Ferens, 494 U.S.
at 523; Van Dusen, 376 U.S. at 639; In re TMJ Implants
Prod. Liab. Litig., 97 F.3d at 1056.
Fidelity in its brief in opposition never truly grappled
with the issue of whether a federal transferee court should
apply its own law or the law of the transferor court to a
defendant’s federal statutory law affirmative defense in
a diversity case. Instead, Fidelity glossed over the issue,
conflating diversity and federal question cases. The
procedural issue presented by this Petition has never
been addressed by this Court, and this case presents the
perfect opportunity to answer the question.

9
CONCLUSION
For the reasons set forth above and in the Petition, the
Petition for a writ of certiorari should be granted.
Dated: January 21, 2020
Howard Graff
Counsel of Record
A rent Fox LLP
1301 Avenue of the Americas, 42nd Floor
New York, NY 10019
(212) 484-3900
howard.graff@arentfox.com
Counsel for Petitioners

